                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

   Case Number: 109070038                                                                     Page 1 of 1



            The National Science Foundation, OIG opened this investigation based on allegations that a
            Universityl contract employee2 , who was a co-Principal Investigator (Co-PI) on an NSF award 3,
            misappropriated federal grant funds.       '

            A report provided to NSFIOIG by the University stated that the fraud was committed on another
            federal agency's grant and that there was no indication or leads that NSF grant funds were
            affected.          '

          , No further investigative efforts are required in this case.

            Accordingly, this case is closed.




NSF OIG Form 2 (\ I/02)
